BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that and original
and 2 copies of the foregoing Motion for Leave to File
Amicus Curiae Brief, Motion for Leave to File Brief on
8 Y2 by 11 Inch Paper, Amicus Curiae Brief of Tony
Evers, Governor of Wisconsin in Support of Emergency
Applications to Vacate Stay in Nos. 20A64, 20A65,
20A66, Democratic National Committee, et al. v.
Wisconsin State Legislature, et al., were sent via Next
Day Service to the U.S. Supreme Court, and 1 copy
was sent via US Mail and e-mail to the following
parties listed below, this 15th day of October, 2020:
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com
Jeffrey M. Harris
Consovoy McCarthy PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
jeff@consovoymccarthy.com

Counsel for Republican National Committee et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Suite 102
I Cincinnati,
Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Misha Tseytlin
Troutman Sanders LLP
227 W. Monroe Street, Suite 3900
Chicago, IL 60606
misha.tseytlin@troutman.com
Scott A. Keller
Baker Botts LLP
700 K Street, NW
Washington, DC 20001
scott.keller@bakerbotts.com
Counsel for Wisconsin State Legislature
John Devaney
Perkins Coie LLP
700 Thirteenth Street, N.W. Suite 800
Washington, D.C. 20005
(202) 654-6200
jdevaney@perkinscoie.com
Counsel for Democratic National Committee
and Democratic Party of Wisconsin
Jay A. Urban
Urban & Taylor, S.C.
Urban Taylor Law Building
4701 N. Port Washington Road
Milwaukee, WI 53212
(414) 906-1700
jurban@wisconsininjury.com
Counsel for Edwards Respondents in Support

Anton Metlitsky
O'Melveny & Myers, LLP
Times Square Tower
7 Times Square
New York, NY 10036
(212) 326-2000
ametlitsky@omm.com
Counsel for Swenson Applicants
Jon Sherman
Fair Elections Center
1825 K Street NW, Suite 450
Washington, DC 20006
(202) 331-0114
j sherman@fairelectionscenter.org
Counsel for Gear Applicants
Dixon Gahnz
Daniel P. Bach
Daniel Spector Lenz
Terrence Polich
Lawton & Cates SC
345 W. Washington Avenue, Suite 201
Madison, WI 53703
dgahnz@lawtoncates.com
Counsel for Marge Bostelmann, Julie M.
Glancey, Ann S. Jacobs, Dean Knudson, Robert
F. Spindell, Jr., Mark L. Thomsen, and
Meaghan Wolfe

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 15, 2020.

Donna J. WoiLJ
/1')
Becker Gallagher Lega\r-Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{l~

J~-O,

Notary Public

I~ , d-dd"O

l:J~

[seal]

JOHN D. GALLAGHER
Notary Pu~ . State of Ofllo
MyComnvaiot, Expire1
February 14, 2023

